<html>
<title> - IS DRUG USE UP OR DOWN? WHAT ARE THE IMPLICATIONS?</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




           IS DRUG USE UP OR DOWN? WHAT ARE THE IMPLICATIONS?

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 19, 2000

                               __________

                           Serial No. 106-265

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                               ----------

                   U.S. GOVERNMENT PRINTING OFFICE
74-707                     WASHINGTON : 2001


_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001


                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                        Robert A. Briggs, Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                    JOHN L. MICA, Florida, Chairman
BOB BARR, Georgia                    PATSY T. MINK, Hawaii
BENJAMIN A. GILMAN, New York         EDOLPHUS TOWNS, New York
CHRISTOPHER SHAYS, Connecticut       ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         DENNIS J. KUCINICH, Ohio
MARK E. SOUDER, Indiana              ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
DOUG OSE, California                 JANICE D. SCHAKOWSKY, Illinois
DAVID VITTER, Louisiana

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
           Sharon Pinkerton, Staff Director and Chief Counsel
                   Steve Dillingham, Special Counsel
                           Ryan McKee, Clerk
                    Sarah Despres, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 19, 2000...............................     1
Statement of:
    Alumbaugh, Mr. and Mrs., private citizens....................    11
    Raub, William, Deputy Assistant Secretary, Scientific 
      Research, Health and Human Services; Julie Samuels, Acting 
      Director, National Institute of Justice, Department of 
      Justice; Lloyd Johnston, Monitoring the Future Project, 
      University of Michigan; Donald Vereen, M.D., Deputy 
      Director, Office of National Drug Control Policy [ONDCP], 
      accompanied by Terry Zobeck, Chief, Research Programs 
      Branch, Office of National Drug Control Policy [ONDCP].....    22
Letters, statements, etc., submitted for the record by:
    Alumbaugh, Mr. and Mrs., private citizens, prepared statement 
      of.........................................................    15
    Johnston, Lloyd, Monitoring the Future Project, University of 
      Michigan, prepared statement of............................    47
    Mica, Hon. John L., a Representative in Congress from the 
      State of Florida, prepared statement of....................     6
    Raub, William, Deputy Assistant Secretary, Scientific 
      Research, Health and Human Services:
        Information concerning youth risk behavior trends........    88
        Prepared statement of....................................    25
    Samuels, Julie, Acting Director, National Institute of 
      Justice, Department of Justice, prepared statement of......    34
    Vereen, Donald, M.D., Deputy Director, Office of National 
      Drug Control Policy [ONDCP], prepared statement of.........    65

 
           IS DRUG USE UP OR DOWN? WHAT ARE THE IMPLICATIONS?

                              ----------                              


                      TUESDAY, SEPTEMBER 19, 2000

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2203, Rayburn House Office Building, Hon. John L. Mica 
(chairman of the subcommittee) presiding.
    Present: Representatives Mica, Ose, and Mink.
    Staff present: Sharon Pinkerton, staff director and chief 
counsel; Steve Dillingham, special counsel; Charley Diaz, 
congressional fellow; Ryan McKee, clerk; and Sarah Despres, 
minority counsel.
    Mr. Mica. Good morning. I would like to call the hearing to 
order. The order of business this morning will be first, I will 
proceed with an opening statement. Then we have two panels we 
will be hearing from today, and Mrs. Mink would like to move 
that we leave the record open for a period of 2 weeks for 
additional statements for Members or interested individuals 
who, through the Chair, would like their statements or 
information made part of the official record of these 
proceedings. With that we will begin, and this morning I will 
start with my opening statement.
    This morning our subcommittee will focus on the question of 
drug use trends in the United States. Over the past few weeks, 
administration officials have attempted to put a happy face on 
what appears, from the information that our subcommittee has 
received, an increasingly sad situation.
    Unfortunately, even information that will be presented by 
the Office of National Drug Control Policy today, that 
information indicates that overall drug use has grown from some 
6.4 percent in 1997 to 7 percent in 1999.
    While marijuana and crack use has decreased slightly among 
youth, methamphetamine, ecstasy and designer drug use has 
skyrocketed both for youth and for adults. Our subcommittee 
must report with great sadness that today, for the first time 
in the history of the United States, drug-induced deaths have 
exceeded homicides in our country. This, in fact, is a 
startling statistic and, in fact, a national tragedy.
    I have some charts that I brought with me. This one shows 
again that sad statistic. For the first time, drug-induced 
deaths have exceeded murder in the United States of America. 
Just an unbelievable tragedy.
    What is interesting is that data supported by information 
we received--this is a headline from last week in the Baltimore 
Sun--the Baltimore Sun said last week they released figures 
that in 1998 there were 290 overdose victims and 313 homicides, 
and that they have now reported for the succeeding year that 
324 people died of illegal drug overdose in Baltimore as 
compared to 309 homicides. So overdose deaths exceeds slayings. 
And this same headline in this urban area has been reported in 
my suburban area of central Florida.
    This is, in fact, a startling statistic and a national 
tragedy. As chairman of the House Subcommittee on Criminal 
Justice, Drug Policy, and Human Resources, I open this hearing 
with a simple message regarding drug use trends. Drug use 
remains as great a danger today as it has ever been. In fact, 
since 1998, America is losing more lives each year to drug-
induced deaths than to murder. From 1992 to 1998, drug deaths 
have increased an astounding 45 percent in this country. 
Unfortunately, law enforcement officials have told me that the 
death statistic for drug deaths would be even worse if it were 
not for improvements in emergency room treatments for 
overdoses. Our hospitals and treatment facilities are being 
deluged with record numbers of drug overdose admissions. This 
is in spite of a nearly 52 percent increase in prevention 
funding over the same period and a 34 percent increase in 
treatment funding. This is also in spite of a $1 billion 
national media campaign that we have undertaken and it has been 
supported by this subcommittee.
    Why are we experiencing such an incredible onslaught of 
drug deaths and drug abuse? First, let me cite these reasons I 
believe--a lack of national leadership. Second, an 
unprecedented supply of deadly drugs. Three, high-purity 
levels. Four, a lack of successful treatment, education and 
prevention programs. And five, harm and risk from drugs is not 
understood and the use of drugs is in fact in our society today 
glorified.
    Although we may take some comfort in a declining murder 
rate, drug-induced deaths are rising. It is critical that we 
not be complacent in this fight against drugs and drug abuse as 
progress we have made may soon be lost. In many critical 
aspects, drug use remains at the highest levels ever. 
Furthermore, the threat is taking new forms after posing 
greater and less apparent danger such as popular but deadly 
club drugs. Accordingly, we must remain committed and work 
harder and smarter to protect our children, families, and 
communities from the dangers associated with the drug use 
trends that we study and will discuss today.
    Today's hearing will examine drug trends, consequences, and 
implications for policies and programs. Yesterday I chaired a 
hearing in Atlanta, GA that focused on the explosion of so-
called club drugs across America. We examined the degree to 
which the threat is known and being experienced in communities 
in and around the city of Atlanta. Last week, we saw on the 
front page of the Baltimore Sun the headlines that drug 
overdose deaths had surpassed murders in Baltimore. As we will 
hear today, these trends reflect rising drug-related deaths 
nationally. Yesterday, I learned from families about tragedies 
they experienced. Today, we will hear and learn more.
    This hearing will focus on two important topics: (1), drug 
use trends as measured by national surveys and research; and 
(2), what is being done and should be done by the 
administration to respond to the drug scourge that continues to 
wreak destruction across America.
    We will hear from the White House Office of National Drug 
Control Policy [ONDCP], over which this subcommittee has 
oversight responsibility. ONDCP is responsible for examining 
data trends, identifying needs, and revising Federal policies 
and programs to respond to these needs. As the recently 
released year 2000 ONDCP Performance Measurement Report points 
out, the information is to be used to hold agencies 
accountable, including altering their budgets.
    This subcommittee is committed to ensuring that the 
administration takes its responsibility seriously and that 
reforms are made and actions are taken where needed. Today's 
hearing is the first opportunity that we have had to examine 
the performance report and implications for administration 
policies and programs.
    In all candor, the recent performance report, agency press 
releases, and comments by senior administration officials have 
highlighted what they consider to be good news and possible 
progress. I will be the first to state that positive trends are 
welcomed and desired by everyone. We are very supportive of the 
hard work being done by the committed individuals on the front 
line who risk their lives each and every day at Federal, State, 
and local levels. I commend law enforcement officers, 
prosecutors, judges, corrections officials, and drug treatment 
professionals at all levels.
    I remain concerned, however, that wrong and misleading 
messages are being sent regarding the dangers and extent of 
drug use in America. It is critical that we set the record 
straight and proceed with the business of working harder and 
smarter. We cannot afford to lose time, or to squander much-
needed Federal resources.
    One survey that has received much attention is the National 
Household Survey on Drug Abuse, or Household Survey. This 
survey is sponsored by the Substance Abuse and Mental Health 
Services Administration [SAMHSA], at HHS.
    Recently, the administration has highlighted the Household 
Survey, finding a reported drop in drug use among teens aged 12 
to 17 from 1997 to 1999. While this limited decline might be an 
indication of positive movement, it should be considered in 
context of other findings. Since 1992, the same household 
survey shows that from 1992 to 1998, past month drug use by 
teens in this age group had almost doubled, from approximately 
5 to 10 percent. The relevant policy questions are: Why do many 
more teens now use drugs than 7 years ago? And, how can we get 
the levels of drug use back down again?
    Second, we will look at the findings of the Monitoring the 
Future [MTF] project, and make comparisons to findings of the 
Household Survey. MTF is a federally sponsored national survey 
of students conducted by the University of Michigan's Survey 
Research Center. Its findings also are examined by ONDCP. The 
MTF data and trends give us reasons to be alarmed. Looking at 
the ONDCP Performance Report numbers and graph, reported 
increases in teen drug use for 8th, 10th and 12th graders are 
obvious and dramatic. Since 1992, 8th grade past month drug use 
more than doubled; 10th grade drug use has almost doubled; and 
there was an increase of almost two-thirds, or 62 percent, 
among 12th grade drug users.
    What are the implications of this continuing high rate of 
drug use across America, and what does it mean for our agencies 
and programs?
    Another source of valuable information that we will examine 
is the data from the Arrestee Drug Abuse Monitoring [ADAM], 
program, supported by the National Institute of Justice [NIJ], 
at the Department of Justice. This data is collected from 35 
sites in 25 States and the District of Columbia, with plans for 
expansion.
    The data is obtained through drug testing and interviews of 
arrestees. ADAM's 1999 research data indicates rising drug use 
among male and female arrestees. More than 60 percent of adult 
male arrestees tested positive for the presence of illegal 
drugs. The city figures range from 50 percent in San Antonio to 
77 percent in Atlanta. What the data clearly shows is the 
linkage between crime and drugs continues. That is one reason 
that I have submitted H.R. 4493--the Drug Treatment Alternative 
to Prison Act--to meet the treatment needs of eligible 
nonviolent offenders. I hope the administration supports this 
bill.
    Finally, we will examine other HHS research related to drug 
use and abuse. As I mentioned, drug-induced deaths continue to 
climb, surpassing murders. ONDCP's drug policy strategy 
indicates that drug-related deaths exceed 50,000 annually, that 
there are more than one-half million emergency department drug-
related episodes, and almost a million drug mentions.
    These are some of the trends that we will explore today, 
and that ONDCP must analyze and recommend changes to policies 
and practices. By most measures, drug use has worsened over the 
past 7 years. We are also seeing changes in drug preferences 
and potencies, as well as emerging challenges with dangerous 
club drugs.
    The implications for the administration are now the focus 
of our attention. What is being done to address these findings? 
In past hearings, we have identified serious deficiencies in 
the bureaucratic practices of SAMHSA in areas of management, 
evaluation, and research.
    Now we learn that the Department of Justice bureaucracy has 
quadrupled in size as a result of increased funding that we 
approved for State and local assistance. We are receiving 
reports of grant delays, waste, and deficient evaluations, in 
addition to less priority being given to drug efforts. In its 
1989 discretionary grant programs, the DOJ Bureau of Justice 
Assistance designed almost every grant to fight drug use. That 
grant program was named after police officer Edward Byrne, who 
died fighting drug traffickers. Today, it is difficult to find 
discretionary drug initiatives at DOJ that are considered to be 
priorities. How did this happen?
    Finally, the many problems we previously identified at the 
Department of Education in administering the Safe and Drug-Free 
Schools program appear to continue.
    As we will hear from our first witness, the consequences of 
drug use are enormous. Our efforts to combat it must remain a 
top priority, and our practices must improve. ONDCP has the 
central role in this challenge, and we must oversee the effort. 
I look forward to hearing from our witnesses today on this 
important topic.
    I am pleased at this time to yield to the gentlelady from 
Hawaii, our ranking member, Mrs. Mink.
    [The prepared statement of Hon. John L. Mica follows:]

    [GRAPHIC] [TIFF OMITTED] T4707.001
    
    [GRAPHIC] [TIFF OMITTED] T4707.002
    
    [GRAPHIC] [TIFF OMITTED] T4707.003
    
    [GRAPHIC] [TIFF OMITTED] T4707.004
    
    Mrs. Mink. Thank you very much, Mr. Chairman.
    The subject area that we have been dealing with for the 
past 2 years, drug consumption in the United States and its 
devastating consequences, is always a very depressing scene, 
and the difficulty that we have on this committee is that it 
does not appear that the massive efforts that we have 
undertaken, not only through this committee but in other 
committees in funding various programs, has not made 
demonstrable successes. We keep hearing the very deplorable 
rates of consumption among school children and teenagers, and 
as the chairman pointed out, the increasing numbers of users 
who end up dead.
    One of the things that I think troubles me most is the lack 
of emphasis on all of the agencies and those committed to this 
issue in really coming forward with a program that can work. We 
have tried everything and still the figures are very 
depressing. And even more depressing, when we talk about people 
dying from the use of these drugs, and to have it referenced as 
club drugs, as though it is something fashionable, sociable, 
and useful. Instead they should be referred to as ``killer 
drugs'' or something which characterizes the impact that these 
drugs have on our society.
    Not only are these people dying from the use of drugs, but 
the implications in the crime statistics are also something 
that we should pay attention to. Drug users are involved in all 
sorts of criminal violations in the pursuit of these drugs and 
trying to find money, stealing and so forth, so the problem is 
enormous and the progress that this country is making is very 
discouraging.
    And it is not for the lack of interest, I don't believe, on 
the part of the administration, or the Congress. We simply have 
not come up with the tools that can produce effective results 
to lower the usage and to enable the community to deal with it. 
It is not only a law enforcement problem, it is a community 
problem, and we have to put our best minds together, 
particularly with the school children and the teenagers that 
find themselves hopelessly addicted to these drugs.
    So I am very supportive of the chairman's efforts in this 
regard in trying to enlarge our capacity to understand the 
nature and scope and size of this problem, and hope that in 
engaging ourselves in hearings like this that we can come up 
with useful endeavors that can help this Nation end this 
scourge.
    Thank you very much, Mr. Chairman.
    Mr. Mica. I thank the gentlelady.
    I am pleased to recognize the gentleman from California, 
Mr. Ose, for an opening statement at this time.
    Mr. Ose. Thank you, Mr. Chairman.
    One of the interesting things that I have found in my short 
tenure here is that the things that are probably the most 
important that we deal with are those that are not going to get 
a lot of headlines. Maybe it is because the subject is 
difficult or ugly or trying or troubling. This is one of those 
subjects that rarely gets a lot of attention.
    In California we are dealing with any number of things, the 
most current of which is a proposal to further legalize or 
actually decriminalize the use or possession of illegal 
narcotics. And the headline on the committee hearing today ``Is 
Drug Use Up or Down? What are the Implications?'' I think are 
apropos to what I am about to say. And that is that the 
proposal on our ballot, Prop. 36, is crafted in such a sense as 
to suggest to the voters that the initiative will provide 
treatment or counseling, or what have you; but exactly the 
opposite. What the initiative does is reduce the treatment and 
reduce the options for people who want to eliminate the scourge 
of drugs from their lives.
    We have a number of things going on at the Federal level, 
and I know your bill, which I agreed to be a cosponsor of 
yesterday afternoon, to provide further treatment options, is 
one of those that we are working on. But that kind of thing is 
happening across the country at State and local levels to give 
people the options. The reality is until those of us from 
Florida or Hawaii or California or wherever say the truth, 
which is that drug use amongst our youth is a deadly, deadly 
exercise, until we say that in terms that our kids understand 
and explain to them that what they are using is not their 
father's pot or father's crack or their mother's crack or pot, 
that is not what it is, it is 10 times stronger, and the 
pharmacological impact on your body is that much worse also.
    Mr. Chairman, I don't know of a more important issue that 
this country faces than the challenge of abuse of drugs. Prop. 
36 is just the most current iteration of the politicization of 
this issue. I would hope that in the course of the debate that 
Prop. 36 is exposed for the fraud that it is and is voted down 
in California, and I will do everything that I can to make sure 
that information is in the public domain. I appreciate you 
having this hearing. I look forward to the testimony that we 
are about to hear.
    Mr. Mica. I thank the gentlelady and the gentleman for 
their opening statements, and now we will proceed with our 
first panel.
    Our first panel has two private citizens, Mr. and Mrs. 
Alumbaugh. They are from Fort Pierce, FL. I just explain again, 
I think you testified before our subcommittee in Orlando, this 
is an investigation and oversight subcommittee of the House of 
Representatives, and in that regard we do swear in our 
witnesses. If you will stand, please, to be sworn.
    [Witnesses sworn.]
    Mr. Mica. The witnesses have answered in the affirmative. I 
am pleased to welcome them to Washington to testify today, 
because I think it is important that we put a human face on 
these statistics and figures that we are announcing today; 
that, in fact, one of those who died in 1988 was their son, 
Michael, and he was a living, breathing, loved, human being. 
And this isn't just about bean counting or statistics, it is 
about people losing their lives in a tragedy beyond belief for 
parents.
    With that, I recognize Debbie Alumbaugh, who is the mother 
of Michael, for her comments and testimony. Thank you.

     STATEMENTS OF MR. AND MRS. ALUMBAUGH, PRIVATE CITIZENS

    Mrs. Alumbaugh. Thank you, Mr. Mica. We feel it is an honor 
to be asked to testify before you again. Again, my name is 
Debbie Alumbaugh, and I am the surviving mother of Michael 
Tiedemann. He was 15 years old when he died. That was 23 months 
ago. The cause of Michael's death was aspiration vomitus and 
GHB toxicity. GHB, or gamma hydroxybutyrate, is one of the club 
drugs that we have in our Nation now.
    Michael was a sophomore at Westwood High School in Ft. 
Pierce, FL. He was a black belt in karate and he was also an 
instructor. He had won several academic awards for reading, 
mathematics, music, and spelling. He was on the honor roll. He 
was not a street kid.
    On October 1, Michael went to school as any normal day; 
during his break between second and third periods, he 
complained to a friend that he had a headache. Another student 
overheard this and offered Michael, ``I have these pills. They 
will make your headache go away and make you feel better.'' We 
believe that since Michael was suffering with a headache, he 
didn't realize or didn't think this was taking drugs. We found 
out from the autopsy that he was given methadone in school. He 
didn't know what he got and the student who gave it did not 
know what she had.
    When Michael came home from school that day, he asked to go 
to the show with some friends. It was unusual to let him out on 
a school night, but he was doing well, A's and B's. Before he 
left, a friend came to the house and they went directly into 
Michael's room. This was one of his best friends. They were 
only in his room for 5 minutes, and this is where the 
transaction of GHB occurred. When Michael came home from the 
movies, his father looked at him: ``Are you on something, son? 
Did you take something?'' Michael denied this. Brad kept asking 
him and asking him. Finally, Michael admitted they had smoked 
some pot. Again, some pot. Brad said that he wouldn't lecture 
him that evening. He was high. It was 1 a.m. He would discuss 
it in the morning. He never got that chance. Michael died that 
night in the safest place, alone in his bed.
    The next morning the phone rang. The voice on the phone 
said Michael is not at the bus stop. As Brad walked across our 
home, he could hear the alarm ringing. Michael did have 
intentions of getting up to go to school. When he opened the 
door, he knew our son was dead. The scene was horrendous. Our 
son was on his back, eyes wide open and glassy. His mouth hung 
open, his tongue swollen so much his father couldn't shut his 
mouth. He had vomited from the chemicals in these drugs. GHB is 
mixed with floor stripper, degreaser and, most recently, red 
devil lye. His hands were in a clawed position where he tried 
to roll himself over to save himself and he couldn't because 
the chemicals in these drugs paralyzed the motor skills.
    We didn't know why our son had died and they had to do an 
autopsy. It took 12 weeks for us to learn why our son had died. 
GHB leaves the body quickly and it was not in his blood or his 
urine. They took our son's brain, and that is where they found 
this deadly drug.
    We go to schools and we tell the kids this story. We 
believe we leave nothing out. There is no antidote for GHB 
overdose. If you pass out and go into a coma, you will die, 
unless your body's constitution is strong enough to bring you 
out. Most are not. There is nothing the doctor or anyone can do 
to fix you. In the last 3 years in Florida alone, we have lost 
174 young people to these drugs. That is 173 tragedies just 
like ours.
    After several months, Michael came to his father in a dream 
and said, ``Dad, it is wrong to destroy the body the way I did. 
You and mom must tell my story. You don't have a clue about the 
drugs that my friends and my generation are faced with daily.'' 
This put a burden on our hearts until we gathered up enough 
courage and strength to make the first call. We called St. 
Andrews where Michael had attended. We went to the school, and 
as I stood in front of all those beautiful young faces, I 
started, we are not here to lecture or accuse any of you of 
being bad kids. We are here to share our experience of losing a 
good kid to drugs. And that is when Michael's Message 
Foundation was born.
    We tell the students what took our son's life, and then I 
tell them a little bit about Michael. He was not only a great 
son but a very loving son. On June 1 of this year, Michael 
would have been 17 years old. And I testified before 
Congressman Mica at a hearing in Orlando, FL and today I stand 
here. It is an honor and a privilege. We have devoted our lives 
to this.
    We have chosen to take our tragedy and to educate our 
Nation. We have turned our grief into something positive and 
constructive. Michael's Message Foundation is a nonprofit 
organization. We do travel to schools. We go from 6th grade 
through 12th and up into college, sharing our son's story. We 
also speak at churches, rehab centers, and we speak a lot to 
at-risk youth activities. Our goal is to take Michael's message 
nationwide in the hopes of saving another family the heartache 
these drugs caused our family.
    Our children are our future. We feel that Michael's message 
should be heard by parents and grandparents also, and Michael's 
voice must be heard, that these drugs kill.
    We have been told by students at a charter school that they 
appreciate drug testing. It gives them a tool that can assist 
them with peer pressure. We do agree that cameras in school 
should be used as a tool or deterrent. Kids are not going to 
tell on the drug dealer.
    We just found out recently that many children knew what our 
son had taken that day. Yet no one came forward, no one was the 
hero and said anything. Their lives are at risk. They are 
afraid of being hurt or killed. Again, education plays a key 
role not only in informing the kids that it is wrong, but death 
is the major consequence to these drugs.
    I am here today in the hopes that laws will be made to 
punish the individuals who make and distribute these deadly 
drugs. No one was arrested for our son's death.
    After sharing Michael's message, students come up and ask 
what happened to the person that supplied the drugs. Well, in 
July, this young man who allegedly gave the GHB was arrested on 
school grounds with a half pound of marijuana, pills, and 
paraphernalia, yet again endangering the lives of our students. 
Did this young man learn nothing from our son's death? Our kids 
are begging for help. They often share with us that they are 
scared, telling this with tears rolling down their faces, and 
this echoes in our minds.
    Thank you again for asking us here today. Let's unite and 
make our schools, communities, and our Nation safer and better 
for everyone. Thank you.
    Mr. Mica. Thank you for your testimony, Mrs. Alumbaugh. Mr. 
Alumbaugh, did you have comments that you wanted to make? You 
are recognized.
    Mr. Alumbaugh. We do feel that the schools would be better 
for everyone, instead of the old saying that our school is drug 
free, we feel that they do make a major bust at a school, that 
the school be rewarded in some way via a camera to set up in 
their school. Or after a few years after this, sometimes we get 
the schools cleared out from the drug problem. Eventually there 
could be computers put in the schools. But right now we 
definitely need some cameras in there because they are not 
going to tell on Johnny.
    Mrs. Alumbaugh. And the people who run the schools turn a 
blind eye because they don't want their school to be labeled a 
bad school.
    [The prepared statement of Mr. and Mrs. Alumbaugh follows:]

    [GRAPHIC] [TIFF OMITTED] T4707.005
    
    [GRAPHIC] [TIFF OMITTED] T4707.006
    
    [GRAPHIC] [TIFF OMITTED] T4707.007
    
    [GRAPHIC] [TIFF OMITTED] T4707.008
    
    Mr. Mica. Maybe I can start with some questions, if I may. 
You said in July of this year, the person who sold your son 
drugs was that this year--was selling them again a few years 
later?
    Mrs. Alumbaugh. Yes, sir.
    Mr. Mica. After your son was literally murdered?
    Mrs. Alumbaugh. Yes.
    Mr. Mica. No enforcement?
    Mr. Alumbaugh. We were told by the detective, due to the 
fact that the drug was given without intent to harm our son, 
there was no harm committed.
    Mr. Mica. Well, unfortunately, you know, I have heard this 
over and over. We heard it again yesterday. We had a picture of 
a beautiful young lady that her father brought to the 
subcommittee, and he described his daughter's horrible death on 
the same drug, except she lingered for 2 years.
    Mrs. Alumbaugh. Oh, my.
    Mr. Mica. And she ended up in a nursing home. She had 
convulsions that were beyond description. Her body temperature 
at some point--he said rose to 107. Her heartbeat was 170 and 
dropped at one point to 25, and their family went through hell 
for 2 years. She finally died.
    One of the problems that we have is that we are being 
inundated with a supply, not only these designer drugs, but 
also they are very difficult to detect for enforcement. The 
only way they can tell on some of these drugs now is after 
death, through an autopsy, unfortunately. We have spent--you 
heard Mrs. Mink. We supported a $1 billion ad campaign, media 
campaign. We are reviewing the results of that. It has only 
been around for less than 2 years. What else can we do at the 
Federal level to address this problem?
    Mrs. Alumbaugh. Newsletters.
    Mr. Alumbaugh. We feel that there should be a special task 
force developed for clearing out our neighborhoods. You are 
going to have to be tough on crime and drug dealers.
    Mr. Mica. Have you seen the ads that have been put out by 
the Office of National Drug Control Policy?
    Mrs. Alumbaugh. Yes.
    Mr. Mica. What is your evaluation? Are these effective? 
Unfortunately, the statistics are from 1998, the year your son 
died. I have not seen 1999, but I am sure that they have 
increased in 1999. The trends are just dramatic.
    Mrs. Alumbaugh. I saw one of the ONDCP commercials. I have 
seen them on TV, but I witnessed one on the Internet that I 
would like to see more of on the TV, and by all means my son be 
a poster child for this. And it is the funeral director talking 
about bringing the body past the school yard one last time on 
its way to the cemetery.
    I believe this is what our kids need. They need to know 
that they are going to die from these drugs, and more of that 
needs to be seen. They need to witness this. They need to hear 
this.
    Again, I saw the commercial on the Internet. I have not 
seen it on TV yet. But those type of commercials, they need to 
know the reality of the drugs.
    Mr. Mica. Mrs. Mink.
    Mrs. Mink. Thank you, Mr. Chairman.
    The comments you have made today are absolutely 
representative, I think, of the families who have suffered as 
you have with your son's involvement in this incident. I am not 
sure it was one incident or several, but it ended in this 
terrible tragedy. The point you make about young people not 
really comprehending the possibility of death from use of these 
drugs, I think, contributes to their general frivolous 
viewpoint about these drugs.
    Now, in the school that your son attended, I am sure 
throughout the campus, throughout the school, there was 
knowledge and a shared grief about this incident. So as a 
consequence of that, is there any statistic that you can point 
to that in this particular school that your son attended that 
there is greater awareness and less incidents like this?
    Mr. Alumbaugh. The school does seem to be a lot better 
school today than it was 2 years ago.
    Mrs. Alumbaugh. Yes, we visited it just the beginning of 
this month. It is more stringent. The school resource officers 
is there and the whole atmosphere of the school is different.
    Mrs. Mink. So when that young person who was your son's 
friend came back to the same campus----
    Mrs. Alumbaugh. It was summer school.
    Mrs. Mink [continuing]. To the same campus with the intent 
to distribute these drugs again, what did the school do to this 
individual?
    Mrs. Alumbaugh. He was arrested on felony charges. He was 
released to his parents.
    Mrs. Mink. How old is he?
    Mrs. Alumbaugh. He is 17 now.
    Mrs. Mink. And what charges have been brought against him?
    Mrs. Alumbaugh. Possession to distribute, possession to 
sell, because he had baggies, scales, pills, money. So they 
arrested him with possession of narcotic, possession with 
intent to distribute and to sell.
    Mrs. Mink. So why couldn't they levy the same charges in 
the incident that involved your son?
    Mrs. Alumbaugh. Those are answers that I would like.
    Mrs. Mink. Thank you, Mr. Chairman.
    Mr. Mica. Mr. Ose.
    Mr. Ose. I am most curious, when you meet with groups of 
kids, how is it that you communicate your message? It would 
seem to me that talking to adults about drugs is different than 
kids. Different words, different things that you visit with 
them about.
    Mrs. Alumbaugh. Well, we have given Michael's message to 
students and to adults.
    Mr. Ose. It is the same message, but is it delivered the 
same way?
    Mrs. Alumbaugh. No.
    To the parent we deliver it more on how to watch your 
child. I add in that I thought my child was safe in my own 
home.
    Mr. Ose. For the benefit of those of us in Congress, some 
of the tell-tale signs of a child who is abusing drugs are?
    Mrs. Alumbaugh. What you saw that night. I didn't have a 
clue myself that night.
    Mr. Alumbaugh. When Michael came home that night and I 
confronted him and was talking to him, he had eye contact like 
we do now. But when he was sitting on the sofa and nobody was 
confronting him, he was comatose. He was in the ozone. He was 
sitting with his mouth hanging open, staring at the floor. I 
knew that there was something wrong with him that night. I 
could tell that he had taken something.
    Mrs. Alumbaugh. Yet when he questioned the kids that he was 
with, they all denied it, one of which was my nephew. He asked 
point blank, Did Michael take something? No, Uncle Brad, 
honest, he just smoked some pot. Like that is not bad. Just 
smoked some pot.
    Mr. Alumbaugh. A few months later, Michael's friends came 
by the house and they shared with me that they were--they were 
buddies, and they shared with me that they were going to smoke 
pot but they would do nothing else, and that day was different. 
That day they decided to take these pills. The old saying goes, 
you know, when they start smoking pot, that is the start of 
their drug activity.
    Mrs. Alumbaugh. But the young boy who brought the drug 
didn't take it. He not only gave it to our son, he gave it to 
another child there also, but he didn't take this drug, but he 
is also the one who called our home the next morning to awaken 
Brad to tell him that Michael wasn't at the bus stop.
    Mr. Ose. When you have meetings with young people, what are 
their questions? The phrase is ``I don't want to rat somebody 
out.'' Obviously they have a fear of the consequence once the 
adults are out of the room kind of thing.
    Mrs. Alumbaugh. A lot of them we have a book over there cry 
and they are worried. They are not worried so much about 
themselves. Some of them are worried about their parents and it 
is not just the young people that are doing these drugs. They 
are afraid. They don't know who to go to and they ask where can 
we go, you know.
    Mr. Alumbaugh. They seem helpless and scared.
    Mr. Ose. They are 12 to 17 and they don't have a lot of 
life experiences.
    Mrs. Alumbaugh. True.
    Mr. Ose. Thank you, Mr. Chairman.
    Mr. Mica. Well, I appreciate so much your coming up from 
Florida. You testified before us in Orlando. When we learn 
these statistics, it confirms that we have drug-induced deaths 
exceeding homicides in this country. I thought it was important 
to have a human face on it. That is a 15-year-old kid; that is 
not a hardened drug dealer that died after a lifetime of abuse. 
And those individuals shouldn't die or be lost, and I 
appreciate your coming before the subcommittee today, trying to 
make something positive out of what has to be every parent's 
absolute worst nightmare.
    Unfortunately, this death was repeated and this tragedy for 
16,925 families the same year. So we appreciate again your 
coming and thank you for the message that you are giving to 
students and to communities and now to our country. Thank you 
so much, and I will excuse you at this time.
    Mrs. Alumbaugh. Thank you.
    Mr. Alumbaugh. Thank you.
    Mr. Mica. Let me call our second panel. Our second panel 
consists of William Raub, who is the Deputy Assistant 
Secretary.
    Mr. Ose. Could I interrupt? Could we have Mr. and Mrs. 
Alumbaugh stick around?
    Mr. Mica. Dr. Raub is Senior Scientific Adviser to the 
Secretary for Science Policy, Department of HHS; Ms. Julie 
Samuels, Acting Director, National Institute of Justice, 
Department of Justice; Dr. Lloyd Johnston, Monitoring the 
Future Project, University of Michigan; and we have the 
Honorable Donald Vereen, who is the Deputy Director of the 
Office of National Drug Control Policy.
    As I indicated before to our first panel, this is an 
investigations and oversight subcommittee. We do swear in our 
witnesses.
    [Witnesses sworn.]
    Mr. Mica. We actually have five witnesses at the table, if 
you can introduce yourself.
    Mr. Zobeck. I am Terry Zobeck. I am Chief of the Research 
Programs Branch at ONDCP.
    Mr. Mica. Dr. Zobeck, thank you.
    Let me first recognize Dr. William Raub who is with 
Scientific Research, HHS. Dr. Raub, welcome and you are 
recognized.

    STATEMENTS OF WILLIAM RAUB, DEPUTY ASSISTANT SECRETARY, 
SCIENTIFIC RESEARCH, HEALTH AND HUMAN SERVICES; JULIE SAMUELS, 
 ACTING DIRECTOR, NATIONAL INSTITUTE OF JUSTICE, DEPARTMENT OF 
    JUSTICE; LLOYD JOHNSTON, MONITORING THE FUTURE PROJECT, 
 UNIVERSITY OF MICHIGAN; DONALD VEREEN, M.D., DEPUTY DIRECTOR, 
OFFICE OF NATIONAL DRUG CONTROL POLICY [ONDCP], ACCOMPANIED BY 
   TERRY ZOBECK, CHIEF, RESEARCH PROGRAMS BRANCH, OFFICE OF 
              NATIONAL DRUG CONTROL POLICY [ONDCP]

    Mr. Raub. Thank you, Mr. Chairman, and Representative Mink 
and Representative Ose. My name is William Raub, and I am the 
Science Advisor to the Secretary for Health and Human Services. 
I am pleased to come before the subcommittee today to highlight 
efforts undertaken by the Department of HHS during the past 
decade to monitor and track trends in youth drug use.
    Mr. Chairman, with your permission I will submit my full 
statement for the record and make some brief statements.
    Mr. Mica. Without objection, so ordered. Please proceed.
    Mr. Raub. Research methodology relevant to the study of 
complex social problems generally does not produce absolute 
results, nor are those results 100 percent precise. Thus, in 
seeking to understand the nature and scope of issues such as 
youth drug use, one is well advised not only to collect data 
from multiple sources but also to analyze such data from 
multiple perspectives. Although synthesizing and interpreting 
data gathered in different ways in different contexts is 
invariably challenging, such efforts often are essential to 
ensure confidence in the results. Moreover, assembling such a 
multifaceted knowledge base often is a prerequisite to 
developing effective prevention strategies.
    With respect to the subject of this hearing, HHS conducts 
several surveys that provide estimates of the percentage of 
youth who use illegal drugs, alcohol or tobacco. I will 
describe each of these surveys briefly and then discuss recent 
trends in youth substance use.
    Since 1990, the CDC has operated the Youth Risk Behavior 
Surveillance System to provide information on specific 
behaviors that underlie the most important health problems 
among youth in the United States. The YRBSS reports on behavior 
in six risk areas: (1) tobacco use; (2) alcohol and other drug 
use; (3) behaviors resulting in unintentional injury and 
violence; (4) sexual behaviors contributing to unintended 
pregnancy and sexually transmitted diseases, including HIV 
infection; (5) unhealthy dietary behaviors; and (6) physical 
inactivity.
    The national Youth Risk Behavior Survey is a national 
component of the YRBSS. This survey, conducted during the 
spring semester among national samples of high school students, 
provides data that are representative of all students in grades 
9 through 12 in public and private schools in the 50 States and 
the District of Columbia. In 1999, 15,359 questionnaires were 
completed in 144 schools. Schools are selected using a 
scientifically based sampling process, and schools with a large 
percentage of African American and Hispanic students are 
oversampled to generate stable estimates each year for these 
subgroups of youth.
    Since 1975, the National Institute of Drug Abuse has 
sponsored the Monitoring the Future Survey through a succession 
of grants to the University of Michigan's Survey Research 
Center. The purpose of the survey is to assess the attitudes 
and behaviors of high school youth in a variety of areas, 
including and most notably the areas of drug, alcohol, and 
tobacco use. The survey covers 45,000 to 50,000 students 
annually and provides unique data on both youth substance use 
and the attitudes and beliefs that may contribute to such 
behaviors. The survey has been conducted among high school 
seniors since its inception and, since 1991, has included 8th 
and 10th graders as well.
    Since 1971, the Substance Abuse and Mental Health Services 
Administration has sponsored the National Household Survey on 
Drug Abuse. NHSDA is the primary source of statistical 
information on the use of illegal drugs by the U.S. population. 
Moreover, the Household Survey provides the only source of 
nationally representative data on adult substance use in this 
country.
    The NHSDA is conducted with a nationally representative 
sample of the population through face-to-face interviews at the 
subjects' place of residence. The population covered by the 
survey is the civilian, noninstitutional population age 12 and 
older in the United States, including all 50 States and the 
District of Columbia. In 1999, the survey underwent a major 
redesign, moving from a paper questionnaire to computer-
assisted administration and dramatically expanding the sample 
to almost 70,000 individuals, including approximately 25,000 
youth between the ages of 12 and 17, to permit State-level as 
well as national-level prevalence estimates of substance use.
    Taken together, these three surveys provide a rich array of 
information to monitor and attempt to understand trends in 
substance use and abuse. Each survey provides unique and 
important information that is useful to local, State and 
national decisionmakers attempting to address problems of 
substance use and abuse. All three surveys recently were 
reviewed by a panel of outside experts, which concluded that 
each survey is methodologically strong, well designed for its 
intended purpose, and well administered.
    I am pleased to report that these three surveys--
individually and collectively--provide data that can help to 
resolve the central question posed in today's hearing: ``Is 
drug abuse going up or down?'' In particular, all three surveys 
indicate that use of illegal drug and tobacco among youth has 
leveled and, in some cases, declined over the last 3 years. 
However, the data also indicate that the success of the last 3 
years hardly is cause for complacency, for youth use of illegal 
drugs and tobacco remains higher than that observed in 1991, 
the historical low point. In particular, all of the Department-
sponsored surveys that track youth substance use show that the 
rates increased during the early to mid parts of the 1990's and 
then leveled off or declined somewhat since.
    The data make clear that far too many of our Nation's young 
people and their families continue to experience the risks, and 
often fatal consequences, that attend the use of illegal drugs 
and other substances. Nevertheless, recent trends in youth use 
of illegal substances provide a basis for cautious optimism 
that the joint efforts of parents, teachers, counselors, and 
public officials to educate youth about the dangers of illegal 
drug, alcohol, and tobacco use are bearing fruit. The Nation 
must buildupon the momentum gained in recent years against this 
major public health and social problem.
    The Department welcomes the continuing interest of the 
subcommittee. I will respond as best I can to whatever 
questions you may have.
    Mr. Mica. We will get to you in a few minutes. I would 
dispute some of your testimony.
    [The prepared statement of Mr. Raub follows:]

    [GRAPHIC] [TIFF OMITTED] T4707.009
    
    [GRAPHIC] [TIFF OMITTED] T4707.010
    
    [GRAPHIC] [TIFF OMITTED] T4707.011
    
    [GRAPHIC] [TIFF OMITTED] T4707.012
    
    [GRAPHIC] [TIFF OMITTED] T4707.013
    
    [GRAPHIC] [TIFF OMITTED] T4707.014
    
    [GRAPHIC] [TIFF OMITTED] T4707.015
    
    Mr. Mica. Let me recognize now Julie Samuels, acting 
director, National Institute of Justice.
    Ms. Samuels. Mr. Chairman, Congresswoman Mink, and 
Congressman Ose, I appreciate the opportunity to participate in 
the subcommittee's review of drug use trends in America. The 
National Institute of Justice operates the Arrestee Drug Abuse 
Monitoring the Future Program, known as ADAM. I would like my 
prepared statement to be accepted for the record.
    Mr. Mica. Without objection, your entire statement will be 
made part of the record. Proceed.
    Ms. Samuels. NIJ is the Department of Justice's independent 
research and development agency. Our mandate is to build 
knowledge to meet the challenges of crime and drug use. NIJ 
developed ADAM to build knowledge about drugs, crime, and 
related social issues and to support local and national 
policymakers. ADAM's primary purpose is to provide timely 
information about drugs and crime, patterns of drug use and 
treatment, emerging drug trends, the effect of law enforcement 
on drug use, treatment needs, and a wide range of related 
issues and it does this by focusing on people who are arrested 
and booked into local lockups.
    ADAM's data are collected in 35 different U.S. Counties 
every quarter. Within 48 hours of arrest, local ADAM staff 
interview arrestees and collect urine samples for drug testing. 
Participation in this program is voluntary and anonymous.
    Four things distinguish ADAM from other surveys as a source 
of information about drug use in America: One, ADAM focuses on 
communities. From ADAM, we develop detailed use of drug use 
among arrestees in specific areas.
    Two, ADAM focuses on arrestees. ADAM focuses on people who 
have been arrested, so the program provides a firsthand look at 
the connection between drugs and crime. These arrestees also 
represent a group of great concern.
    Three, ADAM includes a drug test. In addition to asking 
each respondent questions about his or her drug use and drug 
treatment experiences, respondents also provide a urine sample 
that is laboratory tested for a variety of drugs. The 
scientific testing supplements the interview responses.
    Four, ADAM offers a research platform. Building on the core 
ADAM program, NIJ has established a cost-effective way to 
undertake specialized studies on a broad range of public safety 
and public health issues related to drug use in the arrestee 
population, such as domestic violence or the dynamics of drug 
markets.
    Consistently, ADAM's data have shown that about two of 
every three arrestees who participate in the program test 
positive for at least one of five drugs: cocaine, opiates, 
methamphetamines, marijuana, or PCP. In recent years our data 
have shown little overall decline in the level of drug use 
among arrestees. Perhaps the most important thing we have 
learned is that the drug problem is different in different 
communities around the Nation. For example, methamphetamine use 
among arrestees remained low in most ADAM communities in 1999 
but continued to vary by region, with use clearly higher in the 
ADAM communities in the western part of the Nation.
    As I mentioned earlier, ADAM is primarily designed to 
provide data on drug use among arrestees on the local level. In 
that sense it helps communities nationwide to understand their 
particular problems of drugs and crime from a local 
perspective.
    At present, ADAM data do not readily lend themselves to 
national estimates of drug use among arrestees. Nonetheless, in 
the same way that ADAM can help local communities shape local 
responses to drug and crime, it can help inform national 
policymakers about trends and patterns in various regions in 
the United States.
    We hope to expand ADAM to 75 sites. As part of our 
expansion, we would routinely collect data on arrestees not 
only in urban metropolitan centers, but also in rural, 
suburban, and Indian country. In addition to extending the ADAM 
program and its benefits to other communities, this expansion 
and the improved methodology would enable us to make national 
estimates of drug use among the arrestee population. Our 
expanded plan would also allow us to increase the specialized 
studies that can inform both local and national concerns about 
the problem of drugs and crime in the United States.
    Mr. Chairman, that concludes my opening remarks. I would be 
pleased to answer any questions.
    Mr. Mica. Thank you. We will hold questions until we have 
heard from all of the panel witnesses.
    [The prepared statement of Ms. Samuels follows:]

    [GRAPHIC] [TIFF OMITTED] T4707.016
    
    [GRAPHIC] [TIFF OMITTED] T4707.017
    
    [GRAPHIC] [TIFF OMITTED] T4707.018
    
    [GRAPHIC] [TIFF OMITTED] T4707.019
    
    [GRAPHIC] [TIFF OMITTED] T4707.020
    
    [GRAPHIC] [TIFF OMITTED] T4707.021
    
    [GRAPHIC] [TIFF OMITTED] T4707.022
    
    [GRAPHIC] [TIFF OMITTED] T4707.023
    
    [GRAPHIC] [TIFF OMITTED] T4707.024
    
    [GRAPHIC] [TIFF OMITTED] T4707.025
    
    Mr. Mica. Next we will hear from Dr. Johnston who is with 
Monitoring the Future Project, the University of Michigan.
    Mr. Johnston. Thank you, Mr. Chairman and members of the 
committee. I appreciate this opportunity to testify. My name is 
Lloyd Johnston. I am a research scientist and principal 
investigator of the Monitoring the Future study at the 
University of Michigan. That study, as Mr. Raub mentioned, is 
now in its 25th year, and we have tracked American high school 
seniors for that entire period on an annual basis. In 1991, we 
added younger adolescents, 8th and 10th graders, fortunately at 
a point where it was helpful in interpreting what was going on.
    This is an investigator-initiated research grant, which 
means that the scientists responsible came up with the idea, 
brought it before NIH for competitive review and must bring it 
back every 5 years for continued competitive review. The 
surveys involve in-school student-based samples as opposed to, 
for example, people in a household. They are large and 
nationally representative at each of the three grade levels. 
Each is a separate national survey independently selected; 
altogether we have close to 50,000 students per year located in 
some 430 secondary schools.
    A less well known feature of the design is that we also 
follow some of each year's graduating high school class into 
adulthood by use of mail surveys, sent through the mail, and 
these give us a very nice national sample of American college 
students and eventually young adults of various ages who are 
high school graduates. We have people who are 40 years old whom 
we initially surveyed when they were high school seniors.
    We have over the years given great priority to consistency 
of methods in this study so that we don't confuse 
methodological changes with real underlying changes in the 
phenomenon understudy.
    As far as timeframe, our data are collected in the spring, 
primarily in March through May, and therefore we have a 
somewhat different time reference in the year than the National 
Household Survey which you will hear more about.
    The content coverage is broad. We go into a great many 
substances, in excess of 30 categories and subcategories of 
substances, as well as many characteristics of the person and 
surrounding attitudes and beliefs that may help explain the use 
of these individual drugs.
    As for recent trends, the most recent data are from the 
spring of 1999. The 2000 survey, while complete, is not ready 
for release and will not be until December. The results of the 
study are provided in a blue book of which I hope there are 
enough copies for all the committee members--called Overview of 
Key Findings, which gives a brief synopsis for each of the 
categories of drugs.
    Several things to mention, one of which is that it is clear 
that the peak of the American epidemic was in the last third of 
the 20th century, the late seventies, beginning of the 
eighties. There was a long period of decline in use in all age 
groups, including the ones that we monitor, and that decline 
ended in the beginning of the 1990's. There then was a period 
of increase again, among adolescents only, a rather interesting 
development. Up to that point, almost all of the age groups 
were moving in parallel, and then suddenly adolescents began to 
show an increase in the 1990's that was not observed even among 
young adults.
    You have alluded to the scale of that change, and what we 
saw was that by 1996, the 8th graders reached a peak level and 
there was an inflection point and use has been declining since 
then. The older adolescents reached an inflection point a year 
later in 1997, and the 12th graders thereafter have remained 
level in their use, and the 10th graders have shown some 
decline, although there was not much decline in any of these 
groups in 1999 specifically.
    I might note that the eighth graders, the youngest of the 
students that we looked at, were the first to show the increase 
in the 1990's and also the first to show the decrease in the 
1990's, which suggests to me that the younger children who 
really haven't established attitudes and patterns in this area 
yet are the most susceptible to the forces of change, whatever 
those forces might be--good or bad.
    It also helps to explain why there are some differences in 
the results of the surveys, since our surveys cover somewhat 
different age bands. The Household Survey was down to age 12, 
and we start at 13 and 14.
    Since those peaks, as I say, there has been some change, 
mostly in the younger children. And in 1999, only the eighth 
graders showed any further decline in overall illicit drug use. 
But nevertheless all groups showed some decline in some 
specific drugs. We saw some divergence of different classes of 
drugs. While heroin and marijuana and amphetamines remain 
fairly stable in 1999, a number did decline. Inhalants, crystal 
methamphetamine, crack cocaine, a very important drug, showed a 
decline for the first time among the eighth graders.
    So there was some good news in that year, and there were 
two pieces of bad news. One was the increase of ecstacy, a 
sharp increase among the 10th and 12th graders. Ecstacy is also 
called MDMA, and we know from our surveys of young adults that 
ecstacy use has been climbing among those in the first half of 
the 20's through age 26. So we have clearly seen the emergence 
of an epidemic of use among those in the late teens, early 
20's, of so-called club drugs.
    Steroids also bumped up in 1999 among the younger children, 
8th to 10th graders, perhaps for some very specific reasons. So 
in fact there has been a divergence, which I think helps to 
illustrate the point that different drugs to some degree march 
to their own drummers. As youngsters learn about the hazards of 
a drug, they are less likely to use. As peer disapproval 
emerges, they are less likely to use. With ecstasy or GHB and 
others which always are coming along, I think they enjoy a 
certain period of suspended judgment, as it were, what I call a 
``honeymoon period,'' where their alleged benefits are 
circulated among youngsters, but their effects are not yet well 
documented and convincingly communicated to youngsters. And I 
think that was the case with GHB related to the tragic story 
that we heard earlier from the first panel.
    Another thing to note is that cohort effects have emerged, 
and the teens of the early 1990's are continuing to carry with 
them into young adulthood higher rates of drug use. The kids 
who were entering teenagehood in the late 1990's have lower 
rates of drug use, which is the good news part of the story. We 
have not always seen these cohort effects in the past, but it 
clearly occurred, and I think it was because the kids who grew 
up in the late 1980's and the early 1990's saw so much less 
drug use around them, they saw much less of the consequences, 
the tragic consequences of use, and they came to see these 
drugs as less dangerous than their predecessors who had more 
direct observation of what happened.
    Finally, you noted the increase in death rates, and that, 
of course, is a tragic fact. Death rates and some other 
consequences such as entering treatment do tend to occur on a 
lagged basis from when we actually see an increase in the 
prevalence of using the drugs. For example, cocaine use spread 
considerably in the late seventies, but it wasn't until the 
early eighties that we began to see a rise in deaths in people 
calling emergency hotlines and in people entering treatment and 
various other kinds of effects. So some of these indicators are 
what I call lagged indicators. And I think the spread of heroin 
earlier in the decade is probably one of the contributing 
factors to the death rates that are now rising because many of 
those people are still using heroin, and through a natural 
process of involvement, have become more involved and more 
susceptible to overdose.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Johnston follows:]

    [GRAPHIC] [TIFF OMITTED] T4707.026
    
    [GRAPHIC] [TIFF OMITTED] T4707.027
    
    [GRAPHIC] [TIFF OMITTED] T4707.028
    
    [GRAPHIC] [TIFF OMITTED] T4707.029
    
    [GRAPHIC] [TIFF OMITTED] T4707.030
    
    [GRAPHIC] [TIFF OMITTED] T4707.031
    
    [GRAPHIC] [TIFF OMITTED] T4707.032
    
    [GRAPHIC] [TIFF OMITTED] T4707.033
    
    [GRAPHIC] [TIFF OMITTED] T4707.034
    
    [GRAPHIC] [TIFF OMITTED] T4707.035
    
    [GRAPHIC] [TIFF OMITTED] T4707.036
    
    [GRAPHIC] [TIFF OMITTED] T4707.037
    
    [GRAPHIC] [TIFF OMITTED] T4707.038
    
    [GRAPHIC] [TIFF OMITTED] T4707.039
    
    [GRAPHIC] [TIFF OMITTED] T4707.040
    
    Mr. Mica. We will now recognize Dr. Vereen, who is the 
Deputy Director of the Office of National Drug Control Policy.
    Dr. Vereen. Thank you, Mr. Chairman, Chairman Mica, 
Representative Mink, and Representative Ose and to the other 
members of the subcommittee.
    The Office of National Drug Control Policy welcomes this 
opportunity to discuss illegal drug use trends in America. The 
annual report on the National Drug Control Strategy which is 
submitted to Congress every winter is a data-based 
comprehensive 10-year report that includes an assessment of 
Federal success in achieving the goals and objectives of the 
strategy. And the data presented in that 2000 report are valid, 
and they demonstrate that we are moving in the right direction 
to achieve the goals that we have identified for that strategy.
    I would like to submit the full written testimony for the 
record and just give a brief oral statement.
    Mr. Mica. Without objection, your entire statement will be 
made part of the record. Please proceed.
    Dr. Vereen. As my colleague from HHS has explained already, 
to assess trends in drug use, the government examines the 
results from a number of different surveys, three in 
particular, three nationally representative population studies. 
One is the HHS National Household Survey that has been 
presented. I will just add that is a study that is conducted 
through face-to-face interviews each year, using computer-
assisted self interviews, and it covers a host of drugs that 
are used, including lifetime use, past-year use and past-month 
use.
    You have just heard from Dr. Johnston on the Monitoring the 
Future study. This is a school-based study that surveys 
students in the 8th, 10th and 12th grades. These data are 
released every year in December, and the most recently 
available data are for 1999.
    The third is the Center for Disease Control and 
Prevention's Youth Risk Behavior Study. That is also a school-
based survey for students 9th through 12th grade. The data are 
released for that particular study every other year. That is 
important--an important point to make.
    Let me refer you to a visual because it is very difficult 
to talk about data sometimes without getting some sense of what 
it looks like over time. Here is a slide that shows the trend 
lines from all three studies that have been presented to you, 
and what we have done here is to select out marijuana, the most 
commonly used drug by young people. The main point that we want 
to make from all of this data is that there is a remarkable 
consistency in the trends of the data. The actual numbers will 
change as a reflection of methodology and other factors, which 
we can go into if you would like, but the trends are 
consistent. So while the absolute prevalence rates may vary, 
the trends are consistent.
    Of great concern to us is that even though recently we 
reported that there has been a 21 percent decline over the last 
2 years in illicit drugs use in 12 to 17-year-olds, we are 
concerned as well about the increase, apparent increase in drug 
use in the 18 to 25-year-old group. The current use of any 
illicit drug among this group increased 28 percent from 1997 to 
1999. This may capture some of the club drug use, as Dr. 
Johnston mentioned earlier, those in the lower end of their 
20's. Club drugs are becoming a drug of increasing use.
    Past month use of marijuana in this group followed a 
similar trend, also increasing 28 percent. Overall drug use 
remains level, as you can see from these trend lines. According 
to the National Household Survey, the rate of illicit drug use 
in the population ages 12 and older is statistically unchanged 
over the past 2 years, if you look just at the statistics, and 
it is represented here visually. But as Dr. Johnston stated, 
the latest findings from the Monitoring the Future Study for 
the school year 1998 to 1999 indicate that we are holding the 
line against drug use; that we have turned a corner. He 
referred to it as--I am forgetting the word that he used 
before. But the data from the 1999 Monitoring the Future Study 
show that the use of illicit drugs among 8th, 10th and 12th 
graders remains pretty much unchanged from 1998 to 1999.
    With regard to emerging drugs, there has been an increase 
in ecstacy or MDMA use among 10th and 12th graders which is of 
great concern. The documented increase in these drugs 
corroborates other recent indicators. As you have probably 
noted, these are huge studies with a 6-month to a 1-year lag 
time.
    We have a couple of other mechanisms that allow us to get 
at local trends in a slightly faster fashion. ONDCP has a pulse 
check mechanism, and the Department of HHS, through the 
National Institute on Drug Abuse has a community epidemiology 
working group report that allows us to get a little closer to 
these local trends. And approximately a year ago, we were able 
to note the use in trends of club use drugs as that data was 
taken into account.
    On the next slide I would like to briefly illustrate the 
methamphetamine problem. It has been of great concern to us, 
and we are going to illustrate the ADAM data here to give you a 
visual of that data set to show two main points. These are the 
blood tests or the drug test results of booked male arrestees, 
as was explained by my colleague earlier. But you will notice 
in the cities where methamphetamine was found, there are huge 
variations in the amount of methamphetamine use. We think of 
the drug problem in the country is a collection of local 
epidemics, as the past director of NIJ was wont to describe. 
Just so you get a picture of what the female arrestee rates 
look like, you will see a similar set of patterns, and I won't 
go into the specific changes from city to city.
    The second point that I want to make about this data set is 
that you will notice that all of the cities are west of the 
Mississippi. This is a drug phenomenon that as it creeps across 
the country in its local fashion, has at this point stopped or 
hovered around the Mississippi River, and drug trends follow 
such patterns. So when you hear us announce national trends for 
methamphetamine, we are really talking about the western part 
of the country for the most part. In conclusion, Mr. Chairman, 
the trends among the 12 to 17-year-old age group are positive 
and encouraging. Adolescents increasingly disapprove of illegal 
drugs. But despite this good news, we face an increasingly 
difficult challenge to our abilities to detect, monitor and 
track emerging drug trends that pose a grave and dangerous 
threat to our children.
    All of us at ONDCP are grateful to Congress for your 
efforts in this subcommittee. And now I would like to just say 
a couple of words about our performance measure system.
    Our strategy, as you know, is attached to performance 
measures of effectiveness system. This system makes extensive 
use of many of the data sources that you have seen here for 
tracking our success or where we need areas of help in 
achieving our goals and objectives for the strategy. The system 
is complex. It involves an interagency effort, those of us 
sitting across this table as well as others. The performance 
measure community recognizes that such systems have to change 
and adjust, just like our national strategy. It is a 10-year 
plan based on data, but has flexibility built in to respond to 
new and local epidemics. This PME system has been favorably 
reviewed by the National Academy of Public Administration, the 
National Partnership for Reinventing Government, and the GAO.
    At this point, I will end my comments.
    Mr. Mica. Thank you.
    [The prepared statement of Dr. Vereen follows:]

    [GRAPHIC] [TIFF OMITTED] T4707.041
    
    [GRAPHIC] [TIFF OMITTED] T4707.042
    
    [GRAPHIC] [TIFF OMITTED] T4707.043
    
    [GRAPHIC] [TIFF OMITTED] T4707.044
    
    [GRAPHIC] [TIFF OMITTED] T4707.045
    
    [GRAPHIC] [TIFF OMITTED] T4707.046
    
    [GRAPHIC] [TIFF OMITTED] T4707.047
    
    [GRAPHIC] [TIFF OMITTED] T4707.048
    
    [GRAPHIC] [TIFF OMITTED] T4707.049
    
    [GRAPHIC] [TIFF OMITTED] T4707.050
    
    [GRAPHIC] [TIFF OMITTED] T4707.051
    
    [GRAPHIC] [TIFF OMITTED] T4707.052
    
    [GRAPHIC] [TIFF OMITTED] T4707.053
    
    [GRAPHIC] [TIFF OMITTED] T4707.054
    
    [GRAPHIC] [TIFF OMITTED] T4707.055
    
    [GRAPHIC] [TIFF OMITTED] T4707.056
    
    [GRAPHIC] [TIFF OMITTED] T4707.057
    
    Mr. Mica. Let me first turn to Julie Samuels of DOJ. You 
noted in your testimony, as a result of the urine testing of 
arrestees, it was revealed that the actual number of drug users 
was twice as high as the level that had been previously 
reported; is that correct?
    Ms. Samuels. Yes, sir.
    Mr. Mica. So some of the statistics we are looking at, 
unless there was drug testing, urine testing, may be even worse 
than what is being presented?
    Ms. Samuels. It is unclear whether you can draw that 
conclusion. I think what we have learned with respect to doing 
both the interviews and the drug tests is there are times when 
what the arrestee tells us with respect to his drug use is not 
consistent with the confirmed drug test. I don't know whether 
you can necessarily generalize that to the rest of the 
population.
    Mr. Mica. You said that the actual number of drug users was 
twice as high?
    Ms. Samuels. Yes. Clearly for this population, they are not 
always admitting as much use as the drug tests indicated.
    Mr. Mica. And that most of the testing that we have talked 
about is self-reported; is that correct, Dr. Johnston?
    Mr. Johnston. Yes. The national surveys are all self-
reported. But I should note that the in-jail situation is a 
very extreme situation where people are there because of 
breaking the law and they are under charges.
    Mr. Mica. Have you given any consideration in your 
reporting to finding a sample that would also look at some 
verification of the statistics that you are compiling, Dr. 
Johnston?
    Mr. Johnston. It is, unfortunately, the case that, short of 
doing actual hair or urine testing, there is no gold standard; 
and even those are not a gold standard.
    Mr. Mica. Is there a comparison where they have conducted 
hair or urine testing and then compared it to the statistics?
    Mr. Johnston. Not in this country. I have seen it done in 
other countries, and the results were pretty good. But what we 
do is a number of what I call ``triangulations'' on validity 
and look at quite a host of things which should come out a 
particular way if the data are valid. We look for consistency 
among the answers that an individual gives about various drugs. 
And if it is a high rate of inconsistency, we throw the case 
out. And we look at their reports of friends' use about which 
there would be less motivation to conceal, presumably, since 
they are unnamed friends. We get both prevalence and trends, I 
might add, because sometimes it is asserted that maybe the 
willingness to be honest changes over time, but I think we have 
pretty good evidence to suggest that hasn't been the case, at 
least in the school surveys.
    Mr. Mica. Dr. Vereen, we are trying to get measures of 
performance, and get some hard data on the success or failure 
that we have incurred in these programs. I guess you have a 
couple of targets, a 5-year target, 2002 or 2003, and that 
would be our closest target. What is the overall drug use 
percentage of the population that you are trying to achieve in 
2003?
    Dr. Vereen. Overall, as we state in the national strategy, 
we want to cut past-month use in half. When you look at the 
whole population which the strategy deals with, there is 
approximately a 6.4 percent across the country drug use, and we 
want to cut that in half by 2004.
    Mr. Mica. And you are trying to get to 3 percent; that is 
the goal?
    Dr. Vereen. Yes.
    Mr. Mica. According to the report given to us in 1997, we 
were at 6.4 percent. In 1998 we have dropped slightly to 6.2 
percent. However, this past year we are back at 7 percent. So 
instead of getting closer to the 3 percent of the population, 
we are now 4 full percentage points away. While we had 1 year 
where there was a slight decrease, it appears that the trend, 
in fact, for overall drug use remains increasing; is that 
correct?
    Dr. Vereen. That is 1 data point that----
    Mr. Mica. From 6.4 to 7, and our goal is 3; 7 is higher 
than 3.
    Dr. Vereen. It is, but 1 point doesn't define a----
    Mr. Mica. It doesn't appear that we are heading in the 
right direction. We use the chart here of marijuana. I don't 
know if you have charts of some of the other uses, but we have 
got ecstacy reaching cocaine and heroin proportions. Do we have 
a chart for ecstacy? I know that you testified that it is on 
the increase, and Dr. Johnston said that we are seeing a 
substitution. Rather than crack, rather than seeing other drugs 
we have seen in the past, that they are shifting use; is that 
correct?
    Dr. Vereen. That's correct.
    Mr. Mica. The other problem is we are seeing death and also 
increase in hospital emergency admissions; is that correct?
    Dr. Vereen. Yes.
    Mr. Mica. And I attribute this to two things: One, an 
incredible supply. There is an incredible supply of heroin 
coming in from Colombia. A 20 percent increase in production in 
black tar heroin from Mexico. And not only are we seeing a 
larger amount of heroin and cocaine coming into the country, we 
are also seeing the highest purity levels that we have ever 
confiscated or seized; is that correct?
    Dr. Vereen. Yes, but you are seeing exactly how the drug 
problem preys on the United States. It takes advantage of 
communities and----
    Mr. Mica. We are seeing a regional problem. We see 
methamphetamines, and we held hearings in Mr. Ose's district up 
and down the West Coast. We were in Iowa, and they had captured 
something like 1,000 meth labs between local, State and Federal 
law enforcement sources. We were in Dallas, TX, Mr. Sessions' 
district, and the DEA that covers Oklahoma and Texas told us 
that there are almost 1,000 labs in that area producing meth; 
people, literally by the thousands, being addicted.
    In Mr. Ose's district we had testimony from one social 
worker where several hundred children had been abandoned in one 
county of 100,000 population, and they could only get about 30 
reunited with the family because the people were either 
incoherent or so damaged by meth. We are seeing a new 
phenomenon of death and destruction, I think unlike anything 
that we have experienced; would you agree?
    Dr. Vereen. Yes, and that occurs with each new drug. Each 
one has a new and different profile. The challenge is to react 
as quickly as possible to that new drug.
    Mr. Mica. One of the things that we have is a gap in our 
survey. We had the people from the Center for Disease Control, 
and some of the drugs that are now in vogue are not even on the 
charts for bean counting.
    Dr. Vereen. The CDC study is an every-other-year study. The 
other two studies are starting to capture that. We have two 
other local mechanisms, the CEWG and our pulse check, that gave 
us information about these other phenomena within the last 2 
years.
    Mr. Mica. I have to dispute some of Dr. Raub's testimony, 
too; again, the leveling off. And I think if we look at long 
term, or we take some of these individual drugs, we can dispute 
that we have seen, as Dr. Johnston and Dr. Vereen have 
testified, that we are seeing, unfortunately, a continued use 
overall. We are seeing dramatic increases in adult population, 
we will say 18 to 25, in that range, because some of those are 
young adults, and we have seen still dramatic increases; even 
in drugs that are perceived as a lesser risk, like marijuana, 
only some minor leveling off.
    Do you want to respond, Dr. Raub?
    Mr. Raub. Only that the thrust of my statement was not to 
declare victory; rather, to identify where there are some 
positive signals, but also to acknowledge that there are some 
disconcerting negative developments. This country cannot lower 
its guard, and I agree completely with your concerns.
    Mr. Johnston. We do have crystal methamphetamine for some 
years in the Monitoring the Future study, and for the first 
time in 1999 it showed a significant drop, roughly a 40 percent 
drop. So there was some good news on that front. I hope it 
holds.
    Mr. Mica. Let me yield now to Mrs. Mink.
    Mrs. Mink. Thank you, Mr. Chairman.
    I am somewhat distressed by the tone of the testimony that 
all of you have presented, because I don't happen to agree that 
there is anything to celebrate. The trends that are developed 
by these individuals studies, I don't think relate to the real 
world that we have to face. While studies are very valuable to 
help people determine where the emphasis ought to be in law 
enforcement or treatment I think that the context in which they 
are sometimes read and presented turns people off guard into 
thinking, well, somebody must have a handle on all of this 
because such-and-such a report indicates that the trends are 
going down in consumption.
    I happen to agree with the testimony and tone of the first 
panel where the witnesses said they had such extreme 
difficulty, even among family members, to get the teenagers to 
disclose the truth of what is happening in a school situation. 
And so I take a very jaundiced view about the studies that 
depend upon the teenagers themselves relating honestly their 
30-day practices or 14-day practices or the year practices. And 
I think that our job really is to examine the veracity of this 
evidence that you have collected and test it to make sure that 
these are accurate phenomenon that are going on.
    The first question I have is, while this chart, Dr. Vereen, 
is dismissed as indicating as the trends are similar, there is 
still a wide range between the top line and the bottom line. 
How do you interpret that for a layperson like myself looking 
at this chart saying, why the differences?
    Dr. Vereen. That is an excellent question and I perhaps 
should invite you to some of our staff meetings.
    Mrs. Mink. No, no, no.
    Dr. Vereen. I can partially explain the answer, and my 
colleagues can add what they would like.
    The CDC study, the top line, has a slightly older 
population which we know has a higher drug rate use. The bottom 
line, the red line, is the National Household Survey which 
surveys people as young as 12 which have a----
    Mrs. Mink. They have no business being on one chart.
    Dr. Vereen. Well, we made the judgment, since the studies 
were going to be presented and compared, we would show that. 
Yes, there are discrepancies in the prevalence rate, but we as 
scientists, we as policymakers, look at the trend. I can tell 
you as a physician, we do that as well. Sometimes when you get 
a series of blood tests, the absolute numbers are not as 
important as the trends sometimes.
    So what we have here are multiple views of the drug problem 
to get as clear a picture as possible. That is what we attempt 
to do and that is why we have multiple studies. We don't just 
rely on one.
    Mrs. Mink. The top line is what age group?
    Dr. Vereen. That is the 9th, 10th, 11th and 12th grades. 
The Monitoring the Future we have split out. That is 8th, 10th, 
and 12th.
    Now, on the bottom line you have 12 and over, so you have 
young people who have a low rate of drug use, and then you have 
many older people who are not using drugs at all in a 
household, because that is where the study grabs it, and that 
is why it is important to understand what each of those lines 
mean.
    Mrs. Mink. So they offer no conclusive evidence. They don't 
look at the chart and say, oh, I am a policymaker and now I 
know what to do.
    Dr. Vereen. The data tell us that the trends are consistent 
and move in the same direction.
    Mrs. Mink. Do you have a similar chart for the 18 to 25, 
because in your testimony you point out in this age group there 
is a significant increase in users. Do you have a chart?
    Dr. Vereen. We have one that we can provide for you, 
certainly.
    Mrs. Mink. So your testimony is corroborated by the other 
studies?
    Dr. Vereen. Yes. I can offer that we can take any of these 
numbers and any of the data that the U.S. taxpayer pays for and 
put it in any form. We have a copy of this here, if you would 
like a closer look at it.
    Mrs. Mink. So if the rates of consumption, addiction, 
however you want to say, increase after age 18 up to 26 in the 
studies----
    Dr. Vereen. Not necessarily. What we may have is a cohort 
that had been using at a high rate before and are continuing to 
use at a high rate. When we select out that age group, it 
doesn't necessarily mean that they started at that age group.
    Mrs. Mink. But they are continuing. Why the huge variance 
in use to the next group, Mr. Johnston?
    Mr. Johnston. We have very similar results and it is more 
detailed by age. What we see is the youngsters who were the 
teenagers in the early 1990's when drug use among teens was 
going up, as they enter the post-high school years, those same 
class cohorts or birth cohorts are showing higher rates than 
their predecessors in older ages as well. They are carrying 
with them the habits they established back in the early 1990's. 
That is an unusual pattern here. We see that all of the time 
with cigarettes. If a particular class cohort had a high rate 
of smoking, even in their early teens, they will carry with 
them those habits. We have not seen that with illicit drug use: 
this is the first occasion where we have actually seen a cohort 
effect, and that shows up in the later ages as those 
youngsters, become the people in their 20's and perhaps even 
into their 30's.
    Dr. Vereen. And as Dr. Johnston pointed out, the 20's are 
when many young people are using some of the club drugs for the 
first time.
    Mrs. Mink. Who came up with the term ``club drug?''
    Dr. Vereen. I am not sure.
    Mrs. Mink. Your agency?
    Dr. Vereen. No.
    Mrs. Mink. And ``designer drug,'' who came up with that 
name?
    Dr. Vereen. One of the things that we try to do is speak to 
the American people. We try to get educated by them. So we try 
to keep tabs on all of the latest lingo on the drugs. If we 
want to get messages out to young people, we try to meet them 
halfway by speaking their lingo so that they know that we have 
listened to them and we can report back to them, reflect back 
to them: We are concerned; this thing that you think is not 
very harmful is.
    We have been able to react very quickly to ecstacy, for 
example. We can now show with the latest technology that 
ecstacy, in fact, causes brain change, perhaps permanent brain 
change, and we are able to get that information back to young 
people who are engaging in the club drug scene.
    A part of the initiative by the National Institute on Drug 
Abuse is to actually present those very clinical pictures and 
postcards distributed in batches of thousands to young people 
so they can see for themselves what this drug that they think 
won't harm them could actually do to their brains.
    Mrs. Mink. Thank you, Mr. Chairman.
    Mr. Mica. I thank the gentlelady.
    I yield to the gentleman from California, Mr. Ose.
    Mr. Ose. Thank you, Mr. Chairman. I want to go back to Dr. 
Raub. I want to make sure that I understand something. On page 
5 of your written statement at the bottom paragraph, you 
indicate that there is a change in the methodology by which the 
data for the study was collected, and that there can only be 
limited comparisons made between the data from the 1999 survey 
and the data obtained from surveys prior to 1999; is that 
correct?
    Mr. Raub. Yes, that's correct.
    Mr. Ose. If I also understand your testimony on page 4, the 
survey that we are referring to in that testimony I just cited 
is the primary source of statistical information on the use of 
illegal drugs by the U.S. population? That is the bottom line 
there?
    Mr. Raub. Yes.
    Mr. Ose. The question I have, I am up here trying to 
decide, as compared to Dr. Vereen, I am trying to decide as a 
policymaker what is the data that we are supposed to be using. 
If the methodology had not been changed, do you have any 
indication what the results of the survey would have been so we 
can tie apples to apples, for instance?
    Mr. Raub. In fact, your point is well taken, and the 
language here and the approach here was a cautionary one. This 
is a Household Survey based on direct interview, which is a 
very powerful type of method. Most surveys of this type over 
the last several years have been making the transition from 
pencil and paper questionnaire approaches to computer-assisted 
devices. These are generally more favorable in terms of both 
the accuracy and the efficiency of following up on the data, 
but there is also the risk of introducing a different 
methodology that may alter the reporting. Therefore, as a 
cautionary step, the people doing the Household Survey, while 
introducing the computer method for the first time, also 
maintained a parallel pencil-and-paper approach as a subset, as 
a way of testing that transition.
    Mr. Ose. That is the 13,000 sample?
    Mr. Raub. That's correct. I don't think that the language 
here or from my colleagues from SAMHSA means to suggest that 
the new results are invalid, but rather it is a cautionary, 
upfront signal.
    Mr. Ose. Is there a difference between the results in the 
13,000 sample and the new modality sample?
    Mr. Raub. The analyses are underway. My understanding is 
that to date they seem to be consistent--that there does not 
seem to be a major quirk introduced by the change in the 
methodology. We will know better after another cycle.
    Mr. Ose. When do you except the analysis on the current 
sample, the comparative analysis on the current two samples, to 
be finished?
    Mr. Raub. I don't know precisely, but I expect that to be 
in the near future.
    Mr. Ose. I would appreciate having that information when 
you get it.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T4707.058
    
    [GRAPHIC] [TIFF OMITTED] T4707.059
    
    Mr. Raub. May I also add on the methodological front the 
question that came up before about the use of urine or 
regarding hair testing. As part of the continuing evolution of 
this survey, there is a subset of people in the 2000 Household 
Survey that will have urine and hair testing as well as a 
movement toward some further verification of this information, 
but this is just a natural part of the methodological evolution 
in these studies.
    Mr. Ose. Ms. Samuels, how would you describe ADAM in terms 
of its value as a research tool?
    Ms. Samuels. Well, I think that----
    Mr. Ose. First, ADAM is the statistical process you use 
to----
    Ms. Samuels. ADAM is the program by which we are working in 
these 35 communities across the country, conducting interviews 
and then collecting the drug test information. So from that we 
gain information about the picture of the drug problem in a 
particular community, and that information can then be the 
basis or analytic tool for folks living in that community so 
they understand exactly what the sorts of problems are that we 
are seeing, the types of drugs being used by this population, 
the age effects, the differences by gender.
    Mr. Ose. So it is a pretty comprehensive look into a 
community's practices?
    Ms. Samuels. Yes. With respect to research as well, we also 
have the opportunity because we are doing this periodically to 
go in and ask supplemental questions that might be of 
particular relevancy to communities that we can provide as part 
of the ADAM process, so that we can elicit this information 
from the arrestees in the lockups during part of our 
quarterly----
    Mr. Ose. Is the quality of the information gleaned from 
ADAM high quality, low quality, medium quality? How would you 
characterize it?
    Ms. Samuels. I hope it is high quality. I think we have put 
into place a number of checks to ensure that we are conducting 
the interviews using a consistent instrument across the 
country, to ensure that the drug tests that are taken are sent 
to a central laboratory so they are all analyzed under the same 
set of circumstances, and over time we are also working to 
improve the methodology to ensure that the information that we 
get from a particular county is in fact representative of that 
county.
    Mr. Ose. The 35 communities in which ADAM is currently at 
work, were they statistically selected or did you just pull 
them out of a hat? Do they reflect the country at large?
    Ms. Samuels. The 35 communities that are involved now 
evolved from an earlier part of this program. We had a program 
that was called the Drug Use Forecasting Program that goes back 
more than a decade. We were testing the question as to whether 
or not drug use testing could inform us about drug use among 
arrestees, and from there we have expanded to a number of other 
cities. Currently the program is not and cannot provide a 
national representative estimate of drug use among arrestees, 
but we do have a vision and a plan for expanding to 75 cities, 
and as part of that plan we would be able to provide 
representative and statistically valid data on the drug use in 
the arrestee population as a whole.
    Mr. Ose. That is exactly where I want to focus my question, 
so I appreciate you getting to that. That was not set up, Mr. 
Chairman, but that just happened.
    On page 3 of your testimony, you say ADAM is the only 
national drug survey that routinely provides data on hard-core 
drug users. Then in the last paragraph, you say ADAM is the 
only national drug data system that includes a routine drug 
test as part of the data collection. I presume by your 
inclusion of that specific statement you are trying to 
differentiate ADAM as a scientifically quantifiable survey as 
opposed to one that might just be verbal?
    Ms. Samuels. I think what we are trying to show is that 
there are two parts of it. There is the interview that is 
supplemented by the drug test, so we will ask the arrestee, Are 
you using drugs? What types of drugs are you using? And by 
getting the results of the drug test, we can validate and look 
at the answers that they have provided to us.
    Mr. Ose. Do you find a higher validity in the responses on 
the verbal side from those who know that they are going to have 
their urine or hair samples taken as opposed to those that 
don't? Dr. Johnston, you are kind of smiling.
    Mr. Johnston. That is a reasonable question. I was smiling 
because of what it says about human motivation. But the--I 
don't know whether ADAM has tested that. I know in the 
cigarette research literature, it has been found that if kids 
know that they are going to have saliva tests, they report 
higher rates of smoking, but it is not a consistent finding. It 
is depends on the situation that kids are presented with.
    Mr. Ose. In California we have this Proposition 36 that 
purports to be something to address an inadequacy in our drug 
treatment and drug programs, but the actual initiative 
eliminates the opportunity to perform a urine or drug test. And 
it just seems to me that why would you put into law, in an 
actual referendum that is going to be the law of the State, why 
would you put into that position a preclusion, the inability to 
actually hold someone accountable for their actions so that you 
can get the truth? Our objective here is to provide treatment 
for people. Yet, we are going to put into law or at least 
control--what is the phrase, controlling legal authority--an 
inability to hold them accountable for what they tell us.
    I was reading your testimony, and I can't say that it is in 
here explicitly, but implicitly at least in your testimony, 
that you have to have some means of verifying what you collect 
verbally, and that drug testing urine, blood, hair, is the most 
effective way of doing that.
    I didn't set this up, Mr. Chairman, but it is absolutely so 
precisely targeted on the basic dilemma we face in California 
that I would have flown on three red-eyes, 3 days in a row, 
just to get that in the public record, and I appreciate Ms. 
Samuels doing that.
    Who was it that testified on the Centers for Disease--Dr. 
Raub. You indicated that use levels had flattened or leveled 
and in some cases improved. I am a little bit confused about 
something. I have a copy of the basic data from the Center for 
Disease Control study, and it talks about risk behaviors that 
worsened; and it has got tobacco use frequently, alcohol and 
other drug use, episodic, current, sexual behaviors and the 
like, and it goes from 1991 to 1997 following the 2-year 
implement pattern that Dr. Vereen mentioned. It indicates to me 
that over the five tests that would have been occurring in the 
1990's, that being 1991, 1993, 1995, 1997, and 1999, lifetime 
marijuana use has gone from a risk factor of--I have to make 
sure that I understand this--31.3 to a comparative 47.2 in 
1999. Is that percent? I can't tell if that is percent. It is a 
50 percent increase over an 8 or 9-year period. Current cocaine 
use has gone from a risk behavior rating of 1.7 in 1991 to 4 in 
1999, which is basically a 100 percent increase. Frequent 
cigarette use has gone from a risk behavior rating of 12.7 in 
1991 to 16.8 in 1999.
    If you look at trends, which I believe is what we are 
looking at here, either in that chart or most any others that 
we have seen here, the trend is not positive. The trend is 
showing an increase in the risk behaviors, at least as it 
relates to this chart, and I am wondering whether that 
corresponds to a decline in usage that is indicated in your 
testimony?
    Mr. Raub. On that specific line, sir, I would not 
characterize it as decline in usage. Compared to 1991, there is 
an increase. Compared to 1997, there is a leveling.
    Mr. Ose. I would agree on a comparative basis.
    Mr. Raub. But we need additional years of evidence to 
determine whether we have turned a corner or whether that is 
just a momentary pause.
    Mr. Ose. I am trying to deal with the trend. I am hoping 
that it is not a momentary pause and that it is the peak, so 
that it goes down. And that is as it relates to the marijuana 
use, the 47.1 to the 47.2 risk behavior rating; but in current 
cocaine use, it goes from 3.3 to 4, which is a 25 percent 
increase.
    Mr. Raub. Right.
    Mr. Ose. Now, I am not here to argue about the other 
things, but whether you take it in segmented markets, depending 
on what designer drug of the day we are talking about, or 
otherwise, while there may be some indication from 1997 to 1999 
as it relates to lifetime marijuana use that there is a 
leveling, I don't see the indication that there is a trend here 
that has been set of a leveling. And that is what I am trying 
to get at: whether or not these risk behaviors that are 
highlighted here indicate usage patterns.
    If I understand your testimony correctly, it is that as it 
relates to lifetime marijuana use, as it relates to these 
numbers, there seems to be a leveling from 1997 to 1999; but 
that the trend from 1991 to 1999 indicates significant 
increases?
    Mr. Raub. That is the way that I interpret it, yes, sir. 
And it is a pattern that is consistent in the trend in the 
other two surveys.
    Mr. Ose. The 1997 to 1999 change, or the 1991 to 1999?
    Mr. Raub. The recent year change. Depending when they do 
the measurement, the last few years have changed in the other 
surveys and are showing in general a leveling or a slight 
decline, but we are showing an increase compared to the early 
1990's.
    Mr. Ose. Can you explore with me a little bit, it is 
interesting to me that the difference between lifetime risk 
behavior reports and current risk behavior reports. For 
instance, in 1997, the risk behavior report here for lifetime 
marijuana use indicated a reporting level of 47.1, and in 1999 
it indicated a reporting level of 47.2. That would suggest to 
me that the same people who had reported a lifetime marijuana 
use in 1997 basically reported it also in 1999? I mean if they 
used it by the time they got to 1997, they would have used it 
by the time they got to 1999 on a lifetime basis. But if you go 
to the current report on cocaine use, which I guess would stand 
for one or more times during the 30 days preceding the survey, 
in 1997 you had a risk behavior rating of 3.3, and in 1999 you 
had a risk behavior rating of 4, which going back to my earlier 
comments indicates a 25 percent increase in the usage of one or 
more times during the 30 days preceding the survey.
    So I am a little bit confused on the difference between 
lifetime and current usage and how it can get analyzed for 
those of us who are responsible for making policy so we can 
keep kids like this from, frankly, suffering what we don't want 
them to suffer.
    Mr. Raub. I think that is one that we might best submit for 
the record with detailed explanation of how the various terms 
are used.
    Mr. Ose. I appreciate that. That would be helpful.
    Mr. Mica. Just in conclusion, we have again what I consider 
the attempt to put a happy face on this situation. Both Mrs. 
Mink and I am dismayed by what we have heard today. The death 
statistics are frightening and that is 1998. We haven't seen 
1999. I see no reason why there would be any change in the 
trend that we have seen at least from deaths. This chart that 
was brought in by ONDCP doesn't show the 18-to-25, which put 
another dramatic rise there. There is only one statistic that 
shows any possible trend and possible decline or leveling out 
of what is going on. All three of the top three measures 
include, and if we take the fourth measure, it also shows a 
scary little turn for the worse. So 1 year does not a trend 
make, and we are concerned with the overall picture, which 
again is pretty glum, combined with the new phenomenon of drug-
induced deaths that we see reported here today. I guess that 
really isn't a question, it is more of a statement.
    We would also appreciate if there is something the 
subcommittee could do in making certain that we properly 
address the evaluation and statistics-gathering to make these 
trends and this information more accurate. We would appreciate 
working with each of you in that regard, and we welcome your 
suggestions and recommendations in that vein.
    Mr. Ose.
    Mr. Ose. Thank you, Mr. Chairman. I have collected my 
thoughts. I want to go back to something. Dr. Vereen, I am a 
little bit confused on the statistical sample that was used to 
report the improvement in drug use over the last 3 years. I 
have in my possession here the 1998, 1999, and 2000 annual 
reports on the National Drug Control Strategy Performance 
Measures of Effectiveness. While I am looking for this article 
that I read which I seem to have misplaced, the question arises 
as to whether or not the sample on which the performance 
measurement or the performance metrics were based is 12th grade 
usage or 8th grade usage.
    If I understand correctly, from the years leading up to 
1999 and included in the 1999 annual report, the performance 
metric was the 12th grade usage, and in the current year the 
performance metrics is the 8th grade level usage. My question 
obviously arises, is that apples versus apples or apples versus 
oranges? And I would appreciate any input you might have on 
that.
    Dr. Vereen. It is apples and apples or apples versus 
oranges depending on the question that is being asked in 
general. I brought along the expert, Dr. Zobeck, to explain 
some of the technical reasons why that was changed. It depends 
on what age group you are looking at and what program we 
administer. So, for example, in our media campaign, we want to 
know what is happening with the youngest set. When we are 
talking about overall drug trends for the Nation, which we are 
required to report every year in February, we use the higher 
numbers. But I will let Dr. Zobeck run through the details.
    Mr. Zobeck. The article and the issue that you refer to 
relates to our Objective 2 under Goal 1 of the PME, which deals 
with implementing a media campaign as a prevention tool for 
youth.
    About this time last year when we were beginning to prepare 
the report, we did our review of the various measures. I also 
worked closely with our media campaign people. I oversee the 
evaluation there. And I said, based on the refinements to the 
media campaign, where they decided that the primary focus of 
the campaign would be on what they call ``tweens,'' 11 to 13-
year-olds, I said that the better measure for seeing if that 
has any impact would be using the 8th grade sample rather than 
the 12th grade sample. If you are looking for the most 
immediate impact of the program, which would be the media 
campaign, that would be the most direct measure. So I made the 
recommendation that we switch it from 12th to 8th graders.
    Mr. Ose. If it had stayed at 12th graders, what would have 
been the results?
    Mr. Zobeck. I think you would have had a similar picture. 
Let me go back. The issue that the article made was that by 
changing it to 8th graders, it made it look like we were 
accomplishing things. There was a misunderstanding in the 
article. The chart that came in question was our Progress at a 
Glance chart, if I can find it here.
    This chart on page B-4 was designed to give the reader a 
quick idea based on a color-coding scheme as to whether we were 
making progress, not making progress, or had no data to assess 
it. That is on page B-4.
    Mr. Ose. It looks like a health care plan to me.
    Mr. Zobeck. It is a very complicated system dealing with 
100 measures. However, you notice up here it says, This 
progress is measured as of 1998 relative to 1996, and the 
increase or the change that the article focused on was the 1999 
data which is relevant to this chart, the 1998 data.
    The baseline for the media campaign was 1998 so we actually 
only had 1 year of data. So we coded this green because we had 
the data and it was right on target.
    If you go back to page E-4, I believe it is--no, page E- 
10, you have the chart for that specific measure. And you see 
1998, the red line here is what we call our glide path, where 
we want to be by 2002 and 2007, our two targets. You can see 
that the 1999 data reported it because we had--it was at 73.3 
percent, which is below the glide path. However, that red and 
green chart is not reflecting that data year, it is reflecting 
the 1998 one.
    This coming report, we already know that is going to be a 
red color on there because we know we are low, below the glide 
path. If we had stayed with 12th graders, it would have been 
the same result. It would have been green for 1998 because that 
is the baseline year; but the 12th graders, also in 1999, would 
have been below the glide path. So for the next year's report, 
that is going to be red--either one.
    Mr. Ose. Just to satisfy my curiosity as to whether or not 
we are getting the straight scoop, are you saying that the 
results on page E-10, whether you use 8th or 12th graders as 
the proxy, would have been the same?
    Mr. Zobeck. The 12th graders would have had a lower 
perception of risk, so they would have been--it would have been 
lower, so I guess it would have been a worse case.
    Mr. Ose. That would have put them below the glide path?
    Mr. Zobeck. Below the glide path. You want to increase 
their perception of risk rather than decrease it.
    Mr. Ose. So the 8th graders perceive a higher level of risk 
in marijuana use than 12th graders?
    Mr. Zobeck. A slightly higher.
    Mr. Ose. So using the 8th grade cohort would have improved 
the results of the report?
    Mr. Zobeck. They still would have been below the glide 
path. They wouldn't have changed the color code.
    Mr. Ose. If you project that out a couple, 3, 4 years to 
the dates on which the program is supposed to adhere to certain 
goals, do you get there using the 12th grade cohort or the 8th 
grade cohort, or both?
    Mr. Zobeck. We could get there using both. We have a 
separate evaluation of the media campaign to track this very 
closely, very specifically. This is really a very broad-brush 
way--indicator. It is just one specific variable perception of 
risk of using marijuana regularly. Our in-depth evaluation is 
looking at hundreds of different variables and the complex 
relationship between them. Risk itself is not the most--it 
doesn't explain all of the variations that you are going to 
get.
    Mr. Ose. Prior to the decision to use the 8th grade cohort, 
was there a discussion amongst the people who had the 
responsibility for selecting which cohort to be used and as to 
what its ultimate appearance would be in these reports?
    Mr. Zobeck. At the time we had the discussion, we didn't 
have the 1999 data. We didn't know where it was going to go. It 
was based solely on my recommendation that 8th graders are a 
better source to track the effectiveness of the media campaign 
than 12th graders.
    Mr. Ose. So if we change the media campaign, we may very 
well need to change the cohort that we look at in future years?
    Mr. Zobeck. If we change the media campaign to aim at older 
individuals, yes.
    Mr. Ose. I will say that I can imagine our interest in this 
issue in terms of changing the cohort from the 12th to 8th 
grade sample without having been advised accordingly, because I 
can tell you that the members of this panel travel to a lot of 
different districts, for obvious reason.
    My final question, Mr. Chairman, if I may: What steps are 
you taking so that in the future when the cohorts get changed, 
you advise the appropriate congressional committee of such 
changes?
    Mr. Zobeck. We are going to include a section in the PME 
report that says ``Changes.'' For this one, we just viewed this 
as a technical change rather than a change to any of the goals, 
objective or targets. We changed a measure. We made a call 
thinking, well, this is a minor technical thing; we are not 
going to report it. We realize that we should have, and in the 
next report there will be a section of any changes to this 
report.
    Mr. Ose. Thank you, Mr. Chairman.
    Mr. Mica. I thank the gentleman. We do have a vote that has 
been called, and it looks like possibly a series of votes. I 
don't have any further questions of the panelists at this time. 
We may submit in writing some additional questions for you to 
respond to.
    We appreciate your participation in our hearing today and 
your willingness to work with us to try to find some answers to 
some pretty difficult questions and bring what we see as a very 
serious situation under control.
    There being no further business to come before the 
subcommittee at this time, this meeting is adjourned.
    [Whereupon, at 12:21 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T4707.060

[GRAPHIC] [TIFF OMITTED] T4707.061

[GRAPHIC] [TIFF OMITTED] T4707.062


</pre></body></html>
